HHS/OIG-Audit--"Medicare and Medicaid Need a Priority in the Recovery
of Overpayments from Bankrupt Providers, (A-09-90-00141)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Medicare and Medicaid Need a Priority in the Recovery of Overpayments
from Bankrupt Providers," (A-09-90-00141)
May 5, 1992
Complete
Text of Report is available in PDF format (378 KB). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report addresses the need to improve the recovery of Medicare and
Medicaid overpayments from bankrupt providers. We found that: (1) the current
Federal bankruptcy law does not provide Medicare and Medicaid with a priority
in the recovery of overpayments from bankrupt providers, (2) neither Medicare
nor Medicaid prepared management information reports on receivables written-off
as bad debts, and (3) the losses to the Government from these bad debts may
be substantial.